U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 Bureau of Industry
                      and Security


                Issues Related to the
   Bureau of Industry and Security’s
     Budget and Responsibilities for
               International Treaty
    Implementation and Compliance



                      Final Briefing No. IPE-19463
                                    October 2008




                    Office of Audit and Evaluation
                                     .*"  OF%+

                                   { @!          $   UNITED STATES DEPARTMENT OF COMMERCE
                                                 *   The Inspector General
                                                     Washington, D.C. 20230

October 7,2008

The Honorable Daniel K. Akaka
Chairman
Subcommittee on Oversight of Government Management,
 the Federal Workforce, and the District of Columbia
Committee on Homeland Security and Governmental Affairs
SH-605, Hart Senate Office Building
Washington, DC 205 10

Dear Senator Akaka:

My office has completed the review that you requested on June 9,2008. You asked that
we investigate budget management practices in the Bureau of Industry and Security (BIS)
related to international treaty implementation and compliance activities. We met with
your staff on September 30,2008, to present the results of our review.

To summarize our findings, conference report language accompanying the FY 2006
appropriations bill stated that the funding previously spent on international treaty
implementation and compliance activities could now be spent on "national security
related programs." Based on this language, BIS started funding other programs with the
funding previously dedicated to the Treaty Compliance Division. With regard to the
Chemical Weapons Convention attache being curtailed from his posting in The Hague,
this action was taken by BIS management due to what it described as budget constraints.
We found that funding was available, but was used instead by BIS for other national
security programs. Finally, we found that the electronic system to compile the U.S.
Additional Protocol (AP) declaration would not have been ready in time to accept the
first round of submissions from U.S. industry in late 2008 even if spending on the project
had continued. The development of the system had not been well managed-it was only
35 percent complete in January 2008 when BIS stopped any further work on it.
Reverting to a paper-based process for the AP declaration is inefficient, but in speaking
to all the agencies involved in AP implementation, none of them felt'it would have any
impact on the submission of the initial AP declaration to the International Atomic Energy
Agency.

We have enclosed a copy of our briefing and an identical letter has been sent to Senators
Biden and Lugar. If you have any questions, please feel free to contact me at (202) 482-
4661 or Lisa Allen, Deputy Assistant Inspector General for Inspections and Program
Evaluations, at (202) 482-5422.

                                                 Sincerely,



                                                              '   /

                                                 Todd J. Zinser

Enclosure
October 7,2008
                                   "**€NOF co%




                                   %-,C --
                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     The Inspector General
                                                     Washington, D.C. 20230




The Honorable Joseph R. Biden, Jr.
Chairman
Committee on Foreign Relations
SD-439, Dirksen Senate Office Building
Washington, DC 205 10-6225

Dear Senator Biden:

My office has completed the review that you requested on June 9,2008. You asked that
we investigate budget management practices in the Bureau of Industry and Security (BIS)
related to international treaty implementation and compliance activities. We met with
your staff on September 30,2008, to present the results of our review.

To summarize our findings, conference report language accompanying the FY 2006
appropriations bill stated that the funding previously spent on international treaty
implementation and compliance activities could now be spent on "national security
related programs." Based on this language, BIS started funding other programs with the
funding previously dedicated to the Treaty Compliance Division. With regard to the
Chemical Weapons Convention attach6 being curtailed from his posting in The Hague,
this action was taken by BIS management due to what it described as budget constraints.
We found that funding was available, but was used instead by BIS for other national
security programs. Finally, we found that the electronic system to compile the U.S.
Additional Protocol (AP) declaration would not have been ready in time to accept the
first round of submissions from U.S. industry in late 2008 even if spending on the project
had continued. The development of the system had not been well managed-it was only
35 percent complete in January 2008 when BIS stopped any further work on it.
Reverting to a paper-based process for the AP declaration is inefficient, but in speaking
to all the agencies involved in AP implementation, none of them felt it would have any
impact on the submission of the initial AP declaration to the International Atomic Energy
Agency.

We have enclosed a copy of our briefing and an identical letter has been sent to Senators
Akaka and Lugar. If you have any questions, please feel free to contact me at (202) 482-
4661 or Lisa Allen, Deputy Assistant Inspector General for Inspections and Program
Evaluations, at (202) 482-5422.

                                                 Sincerely,




                                                 Todd J. Zinser

Enclosure
                                             OF   %+

                                   d   $!f         \       UNITED STATES DEPARTMENT OF COMMERCE



October 7,2008
                                       ep
                                   %.--- s
                                        -
                                                           The Inspector General
                                                           Washington, D.C. 20230




The Honorable Richard G. Lugar
Ranking Member
Committee on Foreign Relations
SD-439, Dirksen Senate Office Building
Washington, DC 205 10-6225

Dear Senator Lugar:

My office has completed the review that you requested on June 9, 2008. You asked that
we investigate budget management practices in the Bureau of Industry and Security (BIS)
related to international treaty implementation and compliance activities. We met with
your staff on September 30,2008, to present the results of our review.

To summarize our findings, conference report language accompanying the FY 2006
appropriations bill stated that the funding previously spent on international treaty
implementation and compliance activities could now be spent on "national security
related programs." Based on this language, BIS started funding other programs with the
funding previously dedicated to the Treaty Compliance Division. With regard to the
Chemical Weapons Convention attach6 being curtailed from his posting in The Hague,
this action was taken by BIS management due to what it described as budget constraints.
We found that funding was available, but was used instead by BIS for other national
security programs. Finally, we found that the electronic system to compile the U.S.
Additional Protocol (AP) declaration would not have been ready in time to accept the
first round of submissions from U.S. industry in late 2008 even if spending on the project
had continued. The development of the system had not been well managed-it was only
35 percent complete in January 2008 when BIS stopped any further work on it.
Reverting to a paper-based process for the AP declaration is inefficient, but in speaking
to all the agencies involved in AP implementation, none of them felt it would have any
impact on the submission of the initial AP declaration to the International Atomic Energy
Agency.

We have enclosed a copy of our briefing and an identical letter has been sent to Senators
Akaka and Biden. If you have any questions, please feel free to contact me at (202) 482-
4661 or Lisa Allen, Deputy Assistant Inspector General for Inspections and Program
Evaluations, at (202) 482-5422.

                                                       Sincerely,




                                                       Todd J. Zinser

Enclosure
            Briefing for U.S. Senate Requesters


                  Issues Related to the 

             Bureau of Industry and Security’s 

              Budget and Responsibilities for 

                   International Treaty 

             Implementation and Compliance





IPE-19463                                  October 7, 2008

                       Background
•	 The President’s Budget Request for FY 2008 included $78.78
   million to fund BIS programs. Both the House and Senate
   marks were at this same funding level.
•	 On December 18, 2007, the consolidated appropriations act
   passed, which included a $72.85 appropriation for BIS. This
   was approximately 8 percent less than the President’s
   request.
•	 In May 2008, Congress approved a $2.1 million transfer from
   other Commerce accounts to BIS. According to BIS
   management, this additional funding enabled it to fill key
   management positions and avoid rolling staff furloughs.
•	 On June 8, 2008, Senators Akaka, Biden, and Lugar
   requested that the Commerce OIG review several decisions
   BIS made as a result of the cut to its FY 2008 budget. The
   OIG agreed to address the questions listed on the next slide.



                                                                   2

                          Senate Questions
(1)	   Since 2006, what has the “inspections and other activities related to
       national security” (Category B) subset been spent on? Has money from
       that subset been spent on areas other than international treaty
       responsibilities?
(2)	   What is the history of the Commerce/BIS attaché to the Organization for
       the Prohibition of Chemical Weapons (OPCW)? How did it come about
       and how was the position funded? What was BIS’ rationale for pulling
       the attaché from The Hague?
(3)	   What is the status of compiling the United States’ Additional Protocol (AP)
       declaration? What is the deadline for filing the declaration? Will the
       deadline be missed and if yes, why? What are BIS’ specific
       responsibilities regarding the AP declaration?
(4)	   What funding has been directed to creating an electronic system to
       compile the necessary data for the AP declaration and what is the status
       of the system? What are the consequences of stopping work on the
       system and returning to a paper system? Was a cost-benefit analysis
       completed before making this decision?
(5)	   Was a cost-benefit analysis made before moving the Treaty Compliance
       Division from Rosslyn, Virginia into the main Commerce building?



                                                                                     3

         Findings: Category B Spending

•	 The “inspections and other activities related to national security” subset
   (Category B) of the base BIS appropriation first appeared in the FY 1998
   Commerce, Justice, State appropriations act. This exact language, to
   describe the Category B funds, has been in every appropriations act since.
   [Note: The FY 1998-2008 history of BIS’ base appropriation and the Category
   B subset is included as an Appendix to this briefing.]
•	 Prior to FY 2006, Category B funds were primarily used to fund BIS’
   international treaty implementation and compliance programs, which were
   housed in the Treaty Compliance Division (TCD).
•	 In FY 2006, the Category B funding increased from $7.2 million to $14.77
   million. The conference report stated that these funds were for “national
   security related programs.” Based on this language, BIS began to fund other
   national security related programs, in addition to TCD, with Category B
   funds, including:
    – Office of Strategic Industry and Economic Security,
    – Office of Technology Evaluation,
    – Overseas export control attaché program,
    – End-use check program, and
    – Seized computer evidence recovery program.


                                                                             4

           Findings: Category B Spending
•	   The FY 2008 President’s Budget submission did not specifically list an amount to be
     spent on international treaty compliance activities. The FY 2006 and FY 2007
     President’s Budget submissions stated that $7.2 million was dedicated to BIS’
     Performance Goal 2—“Ensure U.S. Industry Compliance with the Chemical Weapons
     Convention.”
•	   Our analysis found that BIS obligations for TCD’s international treaty programs
     declined by about $200,000 in FY 2006. More significant reductions occurred in FYs
     2007 and 2008.
                 Fiscal         Total TCD Obligations,                 Percentage Decline
                  Year           Including Overhead                   Over FY 2005 Baseline
                  2005                            $5,736,529                                        NA
                  2006                            $5,510,514                                       4%

                  2007                            $3,596,193                                      37%
                  20081                           $3,277,822                                      43%
              1: OIG estimate of full year, based on figures as of August 31, 2008 (11 months of FY).

•	   Our analysis indicates that BIS did not spend $7.2 million on TCD’s programs during
     the past several years. However, determining the exact amount of obligations that
     should be allocated to TCD would require a detailed cost allocation audit, which was
     beyond the scope of this analysis.
•	   According to BIS management, despite the reduced spending on TCD’s programs, all
     CWC inspections have been completed on time and all declarations have been
     submitted on time. Additionally, BIS is also helping industry meet its obligations under
     the CWC and completed two requested site assistance visits in FY 2008.                 5
               Findings: CWC Attaché

•	 The Organization for the Prohibition of Chemical Weapons (OPCW),
   located in The Hague, The Netherlands, has the mission of
   monitoring the implementation of the CWC Treaty, which entered
   into force in 1997.
•	 The United States maintains a permanent on-site delegation to the
   OPCW, which is currently led by Ambassador Eric M. Javits.
•	 Presidential Decision Directive/NSC-70 (1999) states the Department
   of Commerce shall “provide members of the U.S. Delegation to the
   OPCW, including an Alternate Permanent U.S. Representative to the
   OPCW, who will be resident in The Hague.”
•	 BIS, the Commerce bureau with the lead on CWC implementation,
   sent the first CWC attaché to The Hague in September 1999.
•	 Other than a brief, two-month period in 2005, when the incumbent
   attaché unexpectedly resigned, the position had been continually
   filled until August 2008.
•	 BIS paid for the CWC attaché position with Category B funds.
                                                                     6
               Findings: CWC Attaché

•	 In February 2008, BIS management decided to curtail the
   assignment of the attaché due to budget constraints. Because many
   of the costs to keep the attaché and his family in The Hague for FY
   2008 had already been paid, it was decided to curtail his
   assignment on/about July 15, 2008. The attaché’s 3-year posting
   was due to finish in October 2008, so he was effectively curtailed 3
   months early.
•	 There were no significant cost savings in FY 2008 resulting from this
   decision. BIS reported to us that it made the decision out of concern
   for its FY 2009 budget situation. Specifically, BIS would have had
   to commit funds (e.g., housing, school, overhead expenses, etc.) to
   the State Department in FY 2008 in order to keep the attaché in The
   Hague for FY 2009. However, BIS did not believe it was prudent to
   do this given the continuing uncertainty of the bureau’s budget and
   the likelihood of a lengthy continuing resolution due to the
   Presidential election and a new Administration.
                                                                       7
                 Findings: CWC Attaché

•	 According to BIS management, they have committed to filling the vacant
   CWC attaché position as soon as sufficient funding becomes available.
   Based on our analysis, the decision not to fund the CWC attaché was a
   management decision—Category B funding was available but BIS chose to
   spend those funds on other national security programs.
•	 BIS management also told us that they will send staff to key CWC meetings,
   as funds permit. For example, they are sending a staffer to the CWC
   Executive Council meeting in The Hague in October 2008.
•	 In late August 2008, we spoke to Ambassador Javits who expressed concern
   about the effectiveness of the U.S. delegation to the OPCW without the
   Commerce CWC attaché. Specifically:
    –	 The U.S. has some momentum after a successful CWC Review
        Conference in April 2008. This Conference is held once every 5 years
        and it spawned a number of opportunities to negotiate changes to the
        treaty that the U.S. either proposed or supports. Thus, the Ambassador
        expected that the remainder of FY 2008 and FY 2009 would be a very
        busy period for the delegation.
    –	 Many of the opportunities involve addressing shortcomings in the treaty
        related to the commercial chemical industry. The State attaché and
        DOD attaché will do their best to represent U.S. industry interests, but
        without the assistance of a knowledgeable Commerce attaché who is
        intimately familiar with the U.S. chemical industry, the Ambassador
        fears U.S. influence during negotiations on industry-related issues will
        decrease significantly.                                                  8
               Findings: AP Declaration

•	 There is currently no “deadline” for filing the first Additional Protocol (AP)
   declaration because the U.S. has not deposited its instrument of ratification
   of the AP with the International Atomic Energy Agency (IAEA).
•	 According to BIS officials, the President has indicated that he would like to
   do so before the end of his term. Thus, the interagency working group
   (State, Defense, Energy, Commerce, the Attorney General, and the Nuclear
   Regulatory Commission) is working to have all necessary requirements
   completed by December 31, 2008.
•	 Once the instrument of ratification to the AP is deposited, the first U.S.
   declaration under the AP will be due to the IAEA in 180 days.
•	 There are five key requirements that must be met before the President can
   deposit the instrument of ratification to the AP. Three have been completed:
   (1)	 Ratification—the U.S. signed the AP to the U.S./IAEA Safeguards on
         June 12, 1998, and the Senate provided its advice and consent, with
         two conditions, on March 31, 2004.
   (2) 	 Enactment of Implementing Legislation—on December 18, 2006,
         the President signed the United States Additional Protocol
         Implementation Act (Public Law 109-401).
   (3)	 Issuance of an Executive Order—on February 5, 2008, the President
         signed an Order directing the responsible agencies to issue regulations
         and take other necessary actions to implement the Act and meet U.S.
         obligations under the AP.
                                                                                9
              Findings: AP Declaration

•	 The final two requirements that must be met before the President
   can deposit the instrument of ratification to the AP are:
   (4)	 Issuance of Agency Regulations—by the Departments of
         Commerce (for provisions of the AP affecting U.S. industry and
         others not regulated by the NRC), Defense, and Energy, and by
         the NRC.
   (5)	 Certification of Senate Conditions—the President must
         certify that the two conditions added by the Senate, involving
         national security exclusions and site vulnerability assessments
         of locations with direct national security significance, will be
         met within 180 days after the deposit of the instrument of
         ratification.
•	 Status of Commerce’s Implementing Regulations—BIS issued its
   draft AP implementing regulations on July 25, 2008. The 30-day
   comment period closed August 25, 2008. BIS plans to issue the
   final regulation by late October or early November 2008. Entities
   subject to the regulation must declare their civil nuclear fuel-cycle
   activities to BIS within 30 days of the final AP regulation being
   issued.

                                                                       10

          Findings: AP Declaration

•	 Status of Other Agencies’ Implementing
   Regulations—The regulations that must be issued
   by Defense, Energy, and NRC are either (1) on
   target to be issued in time to support the President
   depositing the instrument of ratification prior to
   leaving office or (2) do not have a bearing on the
   President being able to make the deposit.
•	 Status of Certifying the Senate’s Two Conditions—
   Because the work to meet the conditions has just
   begun, it is unclear when the Secretaries of
   Defense and Energy will be able to provide the
   President with the necessary assurances that the
   two Senate conditions can be met.
                                                      11

             Findings: AP Declaration

•	 Once the instrument of ratification is deposited, the National
   Security Presidential Directive (NSPD) 57 states that BIS will
   be responsible for:
    –	 (U) Combining the civil nuclear fuel-cycle related filings it
       previously received (in the 30-day period after the
       publication of its final AP implementing regulations) with
       the filings from Defense, Energy, and the NRC to form the
       basis for the initial U.S. declaration.
    –	 (U) Providing IAEA inspectors with complementary access
       to declared commercial locations and obtaining necessary
       administrative warrants for IAEA inspector
       complementary access.
•	 This second responsibility won’t start until sometime after
   the initial declaration is filed with the IAEA.



                                                                   12

        Findings: AP Reporting System

•	 Starting in 2004, BIS began developing the Additional Protocol
   Reporting System (APRS), an electronic system to collect
   declarations from both industry and government filers subject to
   the AP and compile them into an overall U.S. declaration for
   submission to the IAEA. BIS estimated it would take about 2
   years and $2.0 million to develop and complete APRS.
•	 In January 2008, BIS management stopped development of
   APRS due to budget constraints. TCD was directed to revert to a
   paper-based system for collecting declarations and compiling the
   overall U.S. declaration for submission to the IAEA. BIS did not
   do a cost-benefit analysis of reverting to a paper-based process.
•	 Approximately $1.6 million had been expended on APRS at the
   point development was halted.
•	 Even if BIS had continued development of APRS in its existing
   design, and had sufficient funds to do so, the system would not
   have been ready in time to accept the first round of declarations
   in late 2008.


                                                                  13
        Findings: AP Reporting System

•	 In February 2008, the BIS Chief Information Officer brought in an
   outside consultant to provide a technical assessment of APRS and
   determine whether the development effort could be salvaged. The
   consultant found that the overall project was only 35 percent
   complete and much of the necessary lifecycle management
   documentation was non-existent.
•	 The consultant recommended that APRS be abandoned in favor of a
   new design that would be in compliance with BIS’ security,
   architecture, and lifecycle management requirements.
•	 BIS management acknowledges that reverting to a paper-based
   process for the AP declarations is inefficient. But, they are confident
   the initial U.S. declaration, as well as subsequent declarations, will
   be submitted on time and in the format required by the IAEA.
•	 We spoke to cognizant officials at each of the agencies involved in
   the AP implementation and they all told us that a paper process for
   AP declarations is laborious and cumbersome. However, they do not
   believe it will impact the initial IAEA submission.



                                                                        14
                Findings: TCD Move
•	 According to BIS management, the decision to move TCD from
   Rosslyn, Virginia, to the main Commerce building in May 2008
   was largely driven by the FY 2008 budget situation. However,
   BIS reportedly had been contemplating such an action for the
   past few years given TCD’s shrinking space requirements.
•	 No formal cost-benefit analysis of this decision was done.
   However, BIS did provide us with some rough calculations that
   showed consolidating TCD into existing BIS space in the main
   Commerce building ($140,024 annual cost) would be less
   expensive than continuing to rent separate space in Rosslyn
   ($261,423 annual cost). The cost of vacating the Rosslyn space
   and moving personnel and equipment to the main Commerce
   building was $26,200.
•	 According to BIS management, some savings were also realized
   from eliminating TCD’s separate IT-support contract and
   bringing that work under the BIS Chief Information Officer’s
   IT-support contract.


                                                                    15

Appendix: BIS Appropriations FYs 1998-2008


        Fiscal             Base BIS Appropriation3                   Category B1 Subset of
         Year                                                       Base BIS Appropriation
         1998                                  $43,900,000                            $1,900,000
         1999                                  $52,231,000                            $1,877,000
         2000                                  $54,038,000                            $1,877,000
         2001                                  $64,854,000                            $7,250,000
         2002                                  $68,893,000                            $7,250,000
         2003                                  $74,653,000                            $7,250,000
         2004                                  $68,203,000                            $7,203,000
         2005                                  $68,393,000                            $7,200,000
         2006                                  $76,000,000                          $14,767,000
        20072                                  $75,393,000                          $14,767,000
         2008                                  $72,855,000                          $13,627,000

       1: Category B is for “inspections and other activities related to national security.”
       2: Figures obtained from the Department, instead of applicable Public Law, due to full
          year continuing resolution.
       3: Does not include any rescissions, carryover, recoveries, or transferred funds.

       Note: Between FYs 1998 and 2002, BIS was also provided funding in its base appropriation
       for its work toward CWC implementation. The high amount was $3.4 million in FY 2000.
